                        DEPARTMEN1" OF HEALTH MITI H Ur-..1AN SERVICES


                   OFFICE OF INSPECTOR GENERAL
                                           WASHINGTON, DC 20201



                                                    JUL 2 9 2013

TO: 	              Marilyn Tavenner
                   Administrator
                   Centers for Medicare & Medicaid Services
                             /S/
FROM:              Stuart Wright-
                   Deputy Inspector General
                     for Evaluation and Inspections


SUBJECT: 	 M emorandum Report: Hospitals' Use ofObservation Stays and Short
           Inpatient Stays for Medicare Beneficiaries , OEI-02-12-00040


This memorandum report describes hospitals ' use of observation stays and short inpatient
stays in 2012 . The Centers for Medicare & Medicaid Services (CMS) and others have
raised concerns about these types of stays. To address these concerns, CMS recently
proposed policy changes-through a Notice of Proposed Rulemaking (NPRM)- that, if
promulgated as proposed, would substantially affect how hospitals bill for these stays. 1

SUMMARY

When beneficiaries enter the hospital, hospital physicians often need to decide whether to
admit them as inpatients or to provide observation services. Observation services are
short-term treatments and assessments provided to outpatients to determine whether
beneficiaries require further treatment as inpatients or can be discharged . CMS policy
states that observation services are usually needed for 24 hours or less.

CMS, Members of Congress, and others have raised concerns about hospitals' use of
observation stays and short inpatient stays. They are concerned about beneficiaries
spending long periods of time in observation stays without being admitted as inpatients.
In particular, they are concerned that beneficiaries may pay more as outpatients than if
they were admitted as inpatients. Moreover, beneficiaries who are not admitted as
inpatients may not qualify under Medicare for skilled nursing facility (SNF) services
following discharge from the hospital. Beneficiaries who do not qualify for SNF services
may choose to receive them, but are then responsible for the SNF charges. In addition,
CMS is concerned about improper payments for short inpatient stays when the
beneficiaries should have been treated as outpatients.


1
    See 78 Fed. Reg . 27485 , 27644- 27650 (May 10, 2013).
Page 2 – Marilyn Tavenner


We found that Medicare beneficiaries had 1.5 million observation stays in 2012; these
beneficiaries commonly spent 1 night or more in the hospital. Beneficiaries had an
additional 1.4 million long outpatient stays; some of these may have been observation
stays. Beneficiaries also had 1.1 million short inpatient stays, which were often for the
same reasons as observation stays. On average, short inpatient stays cost Medicare and
beneficiaries more than observation stays. Some hospitals were more likely to use short
inpatient stays, whereas others were more likely to use observation or long outpatient
stays. Beneficiaries had over 600,000 hospital stays that lasted 3 nights or more but did
not qualify them for SNF services. For 4 percent of these stays, beneficiaries received
SNF services for which they did not qualify; Medicare inappropriately paid $255 million
for these services.

BACKGROUND

When a beneficiary enters a hospital, hospital physicians often need to decide whether to
admit the beneficiary as an inpatient. The decision to admit is a complex medical
judgment. It is made by the treating physician, who must consider several factors
including the beneficiary’s medical history, the severity of the beneficiary’s symptoms,
and the expected care. Physicians are also directed to consider whether beneficiaries are
expected to need at least 24 hours of hospital care. 2

During observation stays, treating physicians use short-term treatments and assessments
to determine whether a beneficiary should be admitted as an inpatient or discharged. 3
During these stays, physicians may use a variety of outpatient services, such as laboratory
tests, drugs, minor procedures, x-rays, and other imaging services, to inform this
decision. Observation stays can occur anywhere in the hospital, including the emergency
department, a separate observation unit, or an inpatient unit. According to CMS policy,
the decision to admit or discharge usually can be made within 24 hours and should rarely
take longer than 48 hours. 4

Concerns About Observation Stays and Short Inpatient Stays
CMS, Members of Congress, and others have raised concerns about hospitals’ use of
observation stays and short inpatient stays. They are concerned about beneficiaries
spending long periods of time in observation stays without being admitted as inpatients. 5
In particular, they are concerned that beneficiaries may pay more as outpatients than if
they were admitted as inpatients. Moreover, beneficiaries who are not admitted as
inpatients may not qualify under Medicare for SNF services following discharge from the
hospital. Beneficiaries who do not qualify for SNF services may choose to receive them,
but are then responsible for the SNF charges. Notably, there have been reports of

2
  CMS, Medicare Benefit Policy Manual (MBPM), Pub. No. 100-02, ch. 1, § 10.
3
  CMS, MBPM, Pub. No. 100-02, ch. 6, § 20.6.
4
  Ibid.
5
  See, for example, CMS, Listening Session: Hospital Observation Beds, Aug. 24, 2010. Transcript
available at https://www.cms.gov/hospitaloutpatientpps/downloads/94244031HosptialObservationBeds
ListeningSession082410.pdf [sic]. Accessed on May 8, 2013. Charles Fiegl, “Lawmakers try to eliminate
Medicare coverage technicality,” American Medical News, Nov. 7, 2011. Accessed at
http://www.amednews.com/article/20111107/government/311079953/7/ on May 8, 2013.


Hospitals’ Use of Observation Stays and Short Inpatient Stays (OEI-02-12-00040)
Page 3 – Marilyn Tavenner


beneficiaries in observation stays who incurred bills from SNFs for tens of thousands of
dollars because they did not qualify for SNF services under Medicare. 6

CMS and others also have raised concerns about short inpatient stays, which are inpatient
stays that lasted less than 2 nights. CMS found that a significant portion of payments for
these stays were improper because the services should have been provided in the
outpatient setting. 7 CMS contractors, such as Recovery Audit Contractors, seek to
recoup these improper payments. According to hospitals and others, these recoupment
efforts have contributed to a shift from short inpatient stays to extended observation
stays, which are increasing. 8

Proposed Changes to the Payment Policies for Inpatient and Outpatient Stays
To address these concerns, in April 2013, CMS proposed policy changes through an
NPRM that, if promulgated as proposed, would substantially affect how hospitals bill for
observation stays and short inpatient stays. 9 If these changes are implemented, CMS
contractors would presume that inpatient hospital stays lasting 2 nights or longer were
reasonable and necessary and would qualify for payment as inpatient stays. Conversely,
CMS contractors would presume that stays lasting less than 2 nights would not qualify
for payment as inpatient stays and instead would be paid for as outpatient stays. 10 In the
NPRM, CMS proposed that time spent in any outpatient area of the hospital would not
count towards this 2-night presumption. 11 It also solicited comments on this proposal.

CMS expected these policy changes to reduce the number of observation stays lasting
2 nights or longer and to reduce the number of short inpatient stays. 12 Overall, it
expected a net shift from outpatient to inpatient stays. To offset the costs of additional
inpatient stays, CMS proposed implementing an across-the-board reduction in Medicare
payments for all inpatient stays.

In addition, in March 2013, CMS implemented a ruling regarding payments for inpatient
services when a CMS contractor or a hospital determines that an inpatient admission was
not reasonable and necessary. 13 Specifically, CMS revised its Part B inpatient billing

6
  See, for example, Susan Jaffe, “Medicare rules give full hospital benefits only to those with ‘inpatient’
status,” Washington Post, Sept. 7, 2010: HE01. Drew Armstrong, “Medicare Fraud Effort Gives Elderly
Surprise Hospital Bills,” Bloomberg, Jul. 12, 2010. Accessed at http://www.bloomberg.com/news/2010-
07-12/hospital-fraud-audits-spur-unintended-cash-penalty-to-elderly-on-medicare.html on May 8, 2013.
7
  CMS reports an improper payment rate of 36 percent in 2012 for inpatient stays lasting 1 night or
less. See 78 Fed. Reg. at 27647.
8
  See, for example, American Hospital Association, letter to CMS regarding extended observation services,
October 27, 2010. Accessed at http://www.aha.org/advocacy-issues/letter/2010/101027-let-pollack-cms.pdf
on April 23, 2013. CMS indicated that it received similar comments from various stakeholders. See
77 Fed. Reg. 45061, 45156 (July 30, 2012).
9
  See 78 Fed. Reg. at 27644–27650.
10
   See 78 Fed. Reg. at 27645–27649.
11
   See 78 Fed. Reg. at 27648.
12
   See 78 Fed. Reg. at 27649–27650.
13
   CMS Rulings, CMS-1455-R (March 13, 2013). Simultaneously, CMS issued a proposed rule about
billing inpatient services under Part B; the proposed rule differs in some ways from the ruling and, if
finalized, would supersede the ruling once it is in effect. 78 Fed. Reg. 16632 (March 18, 2013).


Hospitals’ Use of Observation Stays and Short Inpatient Stays (OEI-02-12-00040)
Page 4 – Marilyn Tavenner


policy to allow payment for all hospital services that were provided and would have been
reasonable and necessary if the beneficiary had been treated as an outpatient. This
revision substantially reduces hospitals’ financial risk when admitting beneficiaries if
CMS contractors later deny or recoup payments for inpatient claims. Prior to this ruling,
if an inpatient claim was denied, hospitals received payment for only a limited set of
services even if all the services provided would have been reasonable and necessary in
the outpatient setting.

Payments for Observation Stays, Inpatient Stays, and SNF Stays
An observation stay is a type of outpatient stay. Medicare Part B pays hospitals for
outpatient stays under the Outpatient Prospective Payment System (OPPS). When a
hospital bills Medicare, the claim typically includes many services. For most services,
Medicare pays 80 percent of the cost, while the beneficiary is responsible for the
remaining 20 percent. 14 Because payments are made per service, Medicare and
beneficiary payment amounts both increase as the number of services provided increases.

During both observation and other outpatient stays, beneficiaries may receive services
such as laboratory tests, drugs, minor procedures, x-rays, and other imaging services.
Hospitals distinguish observation stays from other outpatient stays by adding a specific
code to the claim. 15 This code indicates that a hospital provided services in order to
determine whether beneficiaries should be admitted as inpatients or discharged.
Although hospitals typically receive a separate payment for each outpatient service, they
are not always paid a separate amount for coding a claim as an observation stay.

Medicare Part A pays hospitals for inpatient stays under the Inpatient Prospective
Payment System (IPPS). Each beneficiary is classified into a Medicare severity
diagnosis related group (MS-DRG). These groups are based on the beneficiary’s primary
and secondary diagnoses, the procedures the hospital performed, and other factors. 16
Medicare pays hospitals a different payment rate for each MS-DRG. 17

In contrast to Medicare payments for outpatient stays, Medicare payments for inpatient
stays do not depend on the number of services provided or the length of stay. While the
OPPS is designed to reflect the cost of caring for each individual beneficiary, the IPPS is
designed to reflect the cost of caring for an average beneficiary. Likewise, beneficiary
cost-sharing for inpatient stays also does not depend on the number of services provided




14
   42 CFR § 419.40(b); CMS, Medicare Claims Processing Manual, Pub. No. 100-04, ch. 4, § 30.
15
   Hospitals include a revenue center code of “0760” or “0762” to identify the claim as an observation stay.
16
   Each MS-DRG generally falls into one of three severity levels, depending on the beneficiary’s secondary
diagnoses. For example, a beneficiary with no secondary diagnoses that increase the complexity of care
would be in a low-severity MS-DRG; a beneficiary with asthma would be in a medium-severity MS-DRG;
and a beneficiary with pneumonia would be in a high-severity MS-DRG.
17
   Payment rates are adjusted by a variety of facility-level factors, such as a geographic factor to account for
differences in labor costs.


Hospitals’ Use of Observation Stays and Short Inpatient Stays (OEI-02-12-00040)
Page 5 – Marilyn Tavenner


or the length of stay. Instead, beneficiaries are responsible for an inpatient deductible; in
2012, the deductible was $1,156. 18

Medicare Part A pays SNFs for services under the SNF Prospective Payment System.
Medicare pays SNFs a daily rate that is determined by the beneficiary’s needs.
Beneficiaries incur no cost-sharing during the first 20 days, after which they pay a daily
copayment ($145 in 2012). To qualify for SNF services, a Medicare beneficiary must
have had an inpatient hospital stay of at least 3 nights. 19 Beneficiaries may choose to
receive SNF services when they do not qualify for them under Medicare, but the
beneficiaries are then responsible for SNF charges.

METHODOLOGY

We based this study on an analysis of: (1) paid Medicare Part A and Part B hospital
claims from the National Claims History file with dates of service in 2012 and (2) SNF
Part A claims for beneficiaries who received hospital services in 2012. We excluded
hospitals that are not paid under both the OPPS and the IPPS, such as long-term care
hospitals, critical access hospitals, and hospitals in Maryland that are paid under different
systems.

Analysis of Observation Stays. We first identified all of the Part B hospital claims that
were coded as observation stays. 20 We then determined the top 10 reasons for
observation stays (e.g., chest pain). Specifically, we calculated what the MS-DRG would
have been if the beneficiary had been admitted by using the information on the Part B
hospital claim regarding the beneficiaries’ primary and secondary diagnoses, procedures,
age, and gender. 21 We based our method on the MS-DRG Manual and tested the method
on short inpatient claims. 22 Based on the results of the testing, we corrected the number
of observation stays associated with each reason. 23 See Appendix A for descriptions of
the reasons for stays included in this report.

Next, we described how the observation stays began—that is, we calculated the
percentage of observation stays that began: (1) in the emergency department, (2) with an
operating room procedure, and (3) in other ways, such as a scheduled clinic visit. For the

18
   Beneficiaries are responsible for paying the deductible once per benefit period, even though a benefit
period may include multiple hospital stays. A benefit period ends when the beneficiary has not received
Medicare-covered hospital or SNF services for 60 consecutive days.
19
   This qualifying hospital stay typically must occur within the 30 days prior to the SNF admission. See
42 CFR § 409.30.
20
   For the purposes of this report, we considered each hospital claim to be a hospital stay. We identified all
claims that had a claim line item with a revenue center code of “0760” or “0762.”
21
   We also identified the procedures on the non-institutional Part B claims that were provided to the
beneficiary during the observation stay. We converted the Current Procedural Terminology procedure
codes to procedure codes in the International Classification of Diseases, Ninth Revision, Clinical
Modification using information from MediRegs and other sources.
22
   Medicare Severity Grouper with Medicare Code Editor Software, Installation and User’s Manual,
October 2012. Manual appendixes accessed at http://www.codingupdates.com/wp-content/uploads/ on
May 31, 2013.
23
   The tests showed that the method somewhat underestimated certain MS-DRGs and overestimated others.


Hospitals’ Use of Observation Stays and Short Inpatient Stays (OEI-02-12-00040)
Page 6 – Marilyn Tavenner


observation stays that began with an operating room procedure, we determined the most
common procedure. 24 For all observation stays, we calculated the length of stay and
determined which of the top 10 reasons were most likely to lead to an observation stay
that lasted 2 nights or longer. Throughout this report, a 0-night hospital stay means a stay
that began and ended on the same calendar day; a 1-night hospital stay spans 2 calendar
days; a 2-night stay spans 3 calendar days; etc.

We determined total Medicare and beneficiary payments for all observation stays. In
addition, we determined average Medicare and beneficiary payments per stay for all
stays, and we estimated average payments for each of the most common reasons for
stays. 25 We also calculated the percentage of all observation stays that included charges
for self-administered drugs, which are not covered by Medicare during outpatient stays,
and the average payment per observation stay including these charges.

We also determined the number of Part A hospital claims in which the beneficiaries
began as outpatients, received observation services, and were eventually admitted as
inpatients; we refer to these stays as inpatient stays, rather than observation stays.

Analysis of Outpatient Stays That Lasted at Least 1 Night but Were Not Coded as
Observation Stays. We identified all Part B hospital claims that lasted at least 1 night and
were not coded as observation stays. 26 We refer to these claims as long outpatient
stays. 27 As with observation stays, we determined: (1) the top 10 reasons for these stays,
(2) the percentage of these stays that began in the emergency department, and (3) the
length of stay.

Next, we identified the number of observation stays and the number of long outpatient
stays for each hospital. We calculated the percentage of these stays that were observation
stays and the remaining percentage that were long outpatient stays to assess the variation
in hospitals’ use of these stays.

Analysis of Short Inpatient Stays. We identified all Part A hospital claims that were
1 night or less; we refer to these claims as short inpatient stays. 28 We calculated the
percentage of these stays that lasted 1 night and the percentage that lasted less than


24
   We considered an outpatient procedure to be an operating room procedure if it would have led to a
surgical MS-DRG if the beneficiary had been admitted. Most MS-DRGs are considered either medical or
surgical.
25
   These averages are estimates because of the method we used for determining the reasons for observation
stays.
26
   We did not include claims for repetitive and recurring services, such as physical therapy and
chemotherapy. The dates on these claims may indicate, for example, a 30-day stay; however, the
beneficiaries did not spend the night; instead they returned periodically (e.g., once a week) for the same
services.
27
   While these claims did not include a claim line item with a revenue center code of “0760” or “0762,”
they may have included observation services—that is, services to determine whether the beneficiary should
have been admitted as an inpatient or discharged.
28
   We excluded short inpatient stays in which the beneficiary died, was transferred to another acute-care
facility, had an inpatient-only procedure, or left against medical advice.


Hospitals’ Use of Observation Stays and Short Inpatient Stays (OEI-02-12-00040)
Page 7 – Marilyn Tavenner


1 night. We also calculated the percentage that included emergency department services
before the beneficiary was admitted.

In addition, we determined the top 10 reasons for short inpatient stays. 29 We also
calculated total and average Medicare and beneficiary payments for short inpatient stays
and average payments for each of the most common reasons for short inpatient stays.

Comparisons Between Short Inpatient Stays and Observation Stays. We compared short
inpatient and observation stays in several ways. First, we compared the most common
reasons for the two types of stays. We determined how many of the top 10 reasons for
each type of stay overlapped and how the order differed between observation and short
inpatient stays.

Second, we compared Medicare and beneficiary payments for the two types of stays. For
each of the most common reasons, we determined the differences between the average
Medicare and beneficiary payments for short inpatient stays and the estimated average
Medicare and beneficiary payments for observation stays. Next, for all observation stays,
we determined how often beneficiaries paid more than the inpatient deductible and how
often they paid more than twice the inpatient deductible.

Finally, we identified the number of short inpatient stays and the number of observation
and long outpatient stays for each hospital. We determined the percentage of these stays
that were short inpatient stays to assess the variation in hospitals’ use of these stays.

Analysis of SNF Stays for Beneficiaries Who Spent at Least 3 Nights in the Hospital But
Did Not Qualify for SNF Services. We first identified all hospital stays from 2012 in
which beneficiaries spent at least 3 nights in the hospital but had fewer than 3 nights as
inpatients. A beneficiary with a hospital stay that is fewer than 3 inpatient nights does
not qualify for Medicare SNF services. These stays included observation and long
outpatient stays; they also included short and 2-night inpatient stays when the beneficiary
spent at least 1 night as an outpatient prior to admission. We calculated the number and
percentage of each type of these stays.

Next, we determined the number of these hospitals stays in which the beneficiary
received SNF services after the hospital stay. Specifically, we identified all SNF services
that began within 30 days of the discharge from the hospital stay. 30 To verify that these
SNF services did not have another hospital stay that qualified the beneficiary for SNF
services, we matched the hospital dates reported by the SNF to all inpatient claims for
each beneficiary and included only the SNF services that were not associated with
3 inpatient nights.

29
  We used the MS-DRG on the Part A claim to determine the reason for the stay.
30
  Typically, for beneficiaries to qualify for SNF services, these services must be provided within 30 days
of the hospital stay. In addition, SNFs must report the dates of the hospital stay on their claims, unless the
beneficiary did not have a qualifying hospital stay. We included only SNF services in which the reported
hospital dates (1) matched at least one day of the hospital stay or (2) were blank and the Medicare
payments were zero, indicating that the beneficiary did not have a qualifying hospital stay.


Hospitals’ Use of Observation Stays and Short Inpatient Stays (OEI-02-12-00040)
Page 8 – Marilyn Tavenner



We then determined the percentage of these hospital stays in which Medicare paid SNFs
inappropriately for services. We also determined the percentage of stays in which
Medicare did not pay and the beneficiary was fully liable for the SNF charges. For the
hospital stays in which Medicare paid for SNF services, we calculated the total and
average Medicare payments and beneficiary copayments. Similarly, for the hospital stays
in which the beneficiary was liable for SNF charges, we calculated the total and average
charges.

Standards
This study was conducted in accordance with the Quality Standards for Inspection and
Evaluation issued by the Council of the Inspectors General on Integrity and Efficiency.




Hospitals’ Use of Observation Stays and Short Inpatient Stays (OEI-02-12-00040)
Page 9 – Marilyn Tavenner


RESULTS

Medicare Beneficiaries Had 1.5 Million Observation Stays in 2012
Hospitals provided observation services to Medicare beneficiaries in 1,511,875 stays.
During these observation stays, hospitals provided short-term treatments and assessments
and determined that the beneficiaries did not need to be admitted as inpatients. For
another 601,880 stays, hospitals provided observation services to beneficiaries who were
then admitted to the hospital as inpatients. 31

Beneficiaries in observation stays were most often treated for chest pain. During stays
for chest pain, beneficiaries most commonly received electrocardiograms, chest x-rays,
and other laboratory tests, such as troponin tests. The second most common reason for an
observation stay was digestive disorders. During stays for digestive disorders, hospitals
commonly provided various laboratory tests, most frequently a complete blood count.
Notably, as shown in Table 1, many of the common reasons for observation stays—like
chest pain—were related to symptoms, rather than to a specific procedure or underlying
condition. For example, the third and fourth most common reasons were fainting and
“signs and symptoms,” which includes general pain or malaise.

Table 1: Most Common Reasons for Observation Stays, 2012

                                                                           Number of       Percentage of
 Most Common Reasons for Observation Stays
                                                                    Observation Stays   Observation Stays

 Chest pain                                                                  340,484               22.5%

 Digestive disorders                                                           93,091               6.2%

 Fainting                                                                      81,349               5.4%

 Signs and symptoms                                                            47,439               3.1%

 Nutritional disorders                                                         39,227               2.6%

 Dizziness                                                                     34,455               2.3%

 Irregular heartbeat                                                           31,390               2.1%

 Circulatory disorders                                                         31,163               2.1%

 Respiratory signs and symptoms                                                24,715               1.6%

 Medical back problems                                                         23,846               1.6%
Source: Office of Inspector General (OIG) analysis of CMS data, 2013.


Typically, observation stays began with the beneficiary being treated in the emergency
department. Seventy-eight percent of observation stays began this way, while another
9 percent began with the beneficiary having an operating room procedure. The most
common operating room procedure was coronary stent insertion. The remaining
observation stays began in other ways, such as with scheduled clinic visits, minor
procedures, or laboratory and imaging services.

31
     We considered these stays to be inpatient stays, rather than observation stays.


Hospitals’ Use of Observation Stays and Short Inpatient Stays (OEI-02-12-00040)
Page 10 – Marilyn Tavenner


Beneficiaries in Observation Stays Commonly Spent 1 Night or More in the Hospital
In 92 percent of observation stays, beneficiaries spent at least 1 night (2 calendar days) in
the hospital. As shown in Table 2, in 55 percent of observation stays, beneficiaries spent
1 night in the hospital; in 26 percent of stays, beneficiaries spent 2 nights; and in
11 percent of stays, beneficiaries spent at least 3 nights.

Table 2: Number and Percentage of Observation Stays by Length of Stay, 2012

                                                 Number of        Percentage of All
 Length of Stay
                                          Observation Stays      Observation Stays

 0 nights (1 calendar day)                          126,264                     8%

 1 night                                            833,583                    55%

 2 nights                                           385,830                    26%

 At least 3 nights                                  166,198                    11%

     Total                                         1,511,875                  100%
Source: OIG analysis of CMS data, 2013.


Some beneficiaries were more likely than others to have longer observation stays.
Among the most common reasons for observation stays, medical back problems were the
most likely to result in beneficiaries’ having stays lasting 2 nights or longer, followed by
signs and symptoms. Chest pain was the least likely to result in stays lasting 2 nights or
longer. See Appendix B for the percentage of stays lasting 2 nights or longer for the most
common reasons for observation stays.

Beneficiaries Had an Additional 1.4 Million Long Outpatient Stays; Some of These
Stays May Have Been Observation Stays
Medicare beneficiaries had 1,386,090 outpatient stays that lasted at least 1 night, but were
not coded as observation stays. We refer to these as long outpatient stays. As shown in
Table 3, for 94 percent of these stays, beneficiaries spent 1 night in the hospital. For the
remaining 6 percent, beneficiaries spent 2 or more nights in the hospital.

Table 3: Number and Percentage of Long Outpatient Stays, by Length of Stay, 2012

 Length of Stay                           Number of Stays      Percentage of Stays

 1 night                                        1,298,178                     94%

 At least 2 nights                                 87,912                      6%

     Total                                      1,386,090                   100%
Source: OIG analysis of CMS data, 2013.


For some of these stays, hospitals may have provided observation services without
coding the claims as observation stays. Because hospitals are not always paid a separate
amount for coding claims as observation stays, they may have provided observation
services—i.e., services to determine whether a beneficiary should have been admitted or
discharged—without appropriately coding these claims.


Hospitals’ Use of Observation Stays and Short Inpatient Stays (OEI-02-12-00040)
Page 11 – Marilyn Tavenner


Long outpatient stays had similar characteristics to observation stays. Like beneficiaries
in observation stays, those in most long outpatient stays (63 percent) began their stays in
the emergency department. Also like beneficiaries in observation stays, those in long
outpatient stays were most commonly treated for chest pain and digestive disorders. See
Appendix C for the top 10 reasons for long outpatient stays.
Additionally, hospitals varied widely in their use of observation stays and long outpatient
stays. Nationally, 52 percent of these stays were observation stays, while the remaining
48 percent were long outpatient stays. As shown in Figure 1, for some hospitals, less
than 5 percent of their stays were observation stays, while for others, over 90 percent of
their stays were observation stays. This variation may reflect differences in how often
hospitals code claims as observation stays when observation services are provided.

Figure 1: Variation in the Use of Observation and Long Outpatient Stays Among
Hospitals, 2012

                                                 Long Outpatient Stays                Observation Stays
                           100%

                           80%
     Percentage of stays




                           60%

                           40%

                           20%

                            0%
                                       Lowest            Low              Medium              High        Highest
                                  (n=333 hospitals)    (n=499)           (n=1,665)          (n=500)       (n=333)

                                                                 Use of observation stays


Source: OIG analysis of CMS data, 2013.


Medicare Beneficiaries Had 1.1 Million Short Inpatient Stays in 2012; These Stays
Were Often for the Same Reasons as Observation Stays
In 2012, Medicare beneficiaries had 1,146,925 short inpatient stays—that is, inpatient
stays lasting less than 2 nights. For 90 percent of these stays, beneficiaries spent 1 night
in the hospital, while beneficiaries spent less than 1 night for the remaining 10 percent of
stays. Like beneficiaries in observation stays, those in most short inpatient stays
(67 percent) were first treated in the emergency department.

Short inpatient stays were often for the same reasons as observation stays. Similar to
beneficiaries in observation stays, those in short inpatient stays were most commonly
treated for chest pain. Additionally, 6 of the 10 most common reasons for short inpatient
stays were also among the 10 most common reasons for observation stays. See Table 4
for the top reasons for short inpatient and observation stays and Appendix D for more
detailed information on the most common reasons for short inpatient stays.




Hospitals’ Use of Observation Stays and Short Inpatient Stays (OEI-02-12-00040)
Page 12 – Marilyn Tavenner

Table 4: Most Common Reasons for Observation and Short Inpatient Stays, 2012

                                                                             Rank

 Top Reasons for Stays*
                                                               Observation        Short Inpatient
                                                                     Stays                 Stays

 Chest pain                                                                  1                     1

 Digestive disorders                                                         2                     4

 Fainting                                                                    3                     5

 Signs and symptoms                                                          4                    21

 Nutritional disorders                                                       5                     8

 Dizziness                                                                   6                    28

 Irregular heartbeat                                                         7                     3

 Circulatory disorders                                                       8                     6

 Respiratory signs and symptoms                                              9                    45

 Medical back problems                                                      10                    35

 Loss of blood flow to the brain                                            11                     7

 Red blood cell disorders                                                   13                     9

 Coronary stent insertion                                                   15                     2

 Irregular heartbeat (medium severity)                                      21                    10
*This list includes the top 10 reasons for observation stays and the top 10 reasons for short inpatient stays.
Source: OIG analysis of CMS data, 2013.


On Average, Medicare Paid Nearly Three Times More for a Short Inpatient Stay
Than an Observation Stay and Beneficiaries Paid Almost Two Times More
In total, Medicare paid $5.9 billion for short inpatient stays, an average of $5,142 per
stay. In contrast, it paid $2.6 billion for observation stays, an average of $1,741 per stay.
For each of the most common reasons for the stays, the average payment was always
higher for short inpatient stays than for observation stays. As shown in Table 5, the
average payment difference was lowest for chest pain, with Medicare paying $870 more
for a short inpatient stay than for an observation stay, and was highest for red blood cell
disorders, with Medicare paying $2,801 more for a short inpatient stay.

Beneficiaries also paid more for short inpatient stays than for observation stays.
Beneficiaries paid a total of $831 million for short inpatient stays, an average of $725 per
stay. In contrast, they paid a total of $606 million for observation stays, an average of
$401 per stay. 32 Beneficiaries typically paid more for short inpatient stays than for
observation stays when they were treated for the same reason, although there were some

32
  These payments for observation stays do not include charges for self-administered drugs, which are not
covered by Medicare. When these charges are added, beneficiaries paid an average of $528 per
observation stay. Fifty-one percent of observation stays included these charges. Hospitals may not always
bill beneficiaries for these charges. For inpatient stays, beneficiaries are not charged for self-administered
drugs.


Hospitals’ Use of Observation Stays and Short Inpatient Stays (OEI-02-12-00040)
Page 13 – Marilyn Tavenner


exceptions. For all but two of the most common reasons, beneficiaries paid more for
short inpatient stays, with these stays costing an average of $359 to $572 more than
observation stays. For the two exceptions—coronary stent insertions and circulatory
disorders—beneficiaries paid more, on average, for observation stays than for short
inpatient stays. For these stays, the difference in average payments was $817 and $167,
respectively. See Table 5.

Table 5: Differences Between Average Payments* for Short Inpatient Stays and
Observation Stays, by the Most Common Reasons for Treatment, 2012

 Top Reasons for Observation or                     Difference in Average         Difference in Average
 Short Inpatient Stays**                              Medicare Payments           Beneficiary Payments

 Red blood cell disorders                                             $2,801                          $373

 Irregular heartbeat (medium severity)                                $2,444                          $457

 Circulatory disorders                                                $2,312                         -$167

 Coronary stent insertion                                             $2,267                         -$817

 Medical back problems                                                $2,085                          $404

 Digestive disorders                                                  $2,047                          $425

 Nutritional disorders                                                $1,977                          $474

 Fainting                                                             $1,890                          $417

 Signs and symptoms                                                   $1,854                          $359

 Respiratory signs and symptoms                                       $1,792                          $396

 Loss of blood flow to the brain                                      $1,677                          $415

 Dizziness                                                            $1,320                          $466

 Irregular heartbeat                                                    $943                          $572

 Chest pain                                                             $870                          $419
*Average payments for observation stays are estimates because each reason is estimated based on information
from the Part B hospital claim.
**This list includes the top 10 reasons both for observation and short inpatient stays.
Source: OIG analysis of CMS data, 2013.


Beneficiaries in observation stays sometimes paid more than the deductible charged to
beneficiaries in inpatient stays. 33 For 6 percent of all observation stays, or 83,747 stays,
beneficiaries paid more than the inpatient deductible. Notably, for 3,439 observation
stays, beneficiaries paid more than two times the inpatient deductible.

Some Hospitals Were More Likely To Use Short Inpatient Stays While Others Were
More Likely To Use Observation or Long Outpatient Stays
Of the three types of stays, nationally, 28 percent were short inpatient stays, while the
remaining 72 percent were either observation or long outpatient stays. However, the use
of short inpatient stays varied widely among hospitals. Some hospitals used short
33
  The inpatient deductible was $1,156 in 2012. There is no cap on beneficiaries’ 20-percent cost-sharing
for observation stays.


Hospitals’ Use of Observation Stays and Short Inpatient Stays (OEI-02-12-00040)
Page 14 – Marilyn Tavenner


inpatient stays for less than 10 percent of their stays, while others used them for over
70 percent of their stays. See Figure 2 for the variation in hospitals’ use of short inpatient
stays and their use of observation and long outpatient stays.

Figure 2: Variation in the Use of Short Inpatient Stays and the Use of Observation and
Long Outpatient Stays Among Hospitals, 2012

                                             Observation and Long Outpatient Stays            Short Inpatient Stays
                             100%
       Percentage of stays




                             80%

                             60%

                             40%

                             20%

                              0%
                                         Lowest            Low              Medium              High           Highest
                                    (n=333 hospitals)    (n=499)           (n=1,666)          (n=499)          (n=333)

                                                                   Use of short inpatient stays


Source: OIG analysis of CMS data, 2013.


Beneficiaries Had Over 600,000 Hospital Stays That Lasted 3 Nights or More, But
Did Not Qualify Them for SNF Services
Beneficiaries had 617,702 hospital stays that lasted at least 3 nights, but did not include
3 inpatient nights; these beneficiaries did not qualify for SNF services under Medicare.
These hospital stays included observation and long outpatient stays. They also included
stays in which the beneficiary began as an outpatient and was eventually admitted into a
short or 2-night inpatient stay. See Table 6 for the types of hospital stays lasting at least
3 nights without 3 inpatient nights.

Table 6: Types of Hospital Stays Lasting at Least 3 Nights but With Less Than 3 Inpatient
Nights, 2012

 Type of Hospital Stay                                         Number of Hospital Stays       Percentage of Hospital Stays

 Outpatient only

   Observation                                                                    166,198                             27%

   Long outpatient                                                                   18,072                              3%

 Inpatient that began as outpatient

   Short inpatient                                                                   78,795                           13%

   2-night inpatient                                                              354,637                             57%

     Total                                                                        617,702                             100%
Source: OIG analysis of CMS data, 2013.




Hospitals’ Use of Observation Stays and Short Inpatient Stays (OEI-02-12-00040)
Page 15 – Marilyn Tavenner


For 4 percent, or 25,245, of the 617,702 hospital stays, beneficiaries received SNF
services following their discharge from the hospital, even though they did not qualify for
these services under Medicare. For 23,148 of these hospital stays, Medicare
inappropriately paid for the SNF services, for a total of $255 million. Beneficiaries paid
a total of $63 million in copayments, for an average of $2,735 for the SNF services
following each hospital stay. For the remaining 2,097 hospital stays, Medicare did not
pay for the SNF services and the beneficiary was fully liable for the SNF charges. These
charges totaled $22 million, for an average of $10,503.

CONCLUSION

In 2012, Medicare beneficiaries had 1.5 million observation stays; these beneficiaries
commonly spent 1 night or more in the hospital. Beneficiaries had an additional
1.4 million long outpatient stays; some of these may have been observation stays.
Beneficiaries also had 1.1 million short inpatient stays, which were often for the same
reasons as observation stays. On average, short inpatient stays cost Medicare and
beneficiaries more than observation stays. Some hospitals were more likely to use short
inpatient stays, whereas others were more likely to use observation or long outpatient
stays. Additionally, beneficiaries had over 600,000 hospital stays that lasted 3 nights or
more but did not qualify them for SNF services. For 4 percent of these stays,
beneficiaries received SNF services for which they did not qualify; Medicare
inappropriately paid $255 million for these services.

CMS recently proposed policy changes—through an NPRM—that, if promulgated as
proposed, would substantially affect how hospitals bill for observation stays, long
outpatient stays, and short inpatient stays. Our results may be useful to CMS as it
considers policy changes. Our results indicate that under the policies proposed in the
NPRM, the number of short inpatient stays would be significantly reduced; however, the
number of observation and long outpatient stays may not be reduced if outpatient nights
are not counted towards the 2-night presumption. Our results further indicate that, under
the policies proposed in the NPRM, some hospitals would likely follow the provisions
and continue to bill these as outpatient stays; other hospitals—given strong financial
incentives and few barriers—would likely not follow the provisions and would admit
beneficiaries as inpatients as soon as possible to meet the 2-night presumption.

Lastly, our results raise concerns about SNF services for beneficiaries in observation
stays, long outpatient stays, and short inpatient stays. CMS should consider how to
ensure that beneficiaries with similar post-hospital care needs have the same access to
and cost-sharing for SNF services. Allowing nights spent as an outpatient to count
toward the 3 nights needed to qualify for SNF services may require additional statutory
authority. Ensuring that controls are in place so that Medicare does not inappropriately
pay when beneficiaries do not qualify for SNF services is also critical. We will refer to
CMS in a separate memorandum the SNFs that received $255 million in inappropriate
payments so that CMS can look into recoupment.




Hospitals’ Use of Observation Stays and Short Inpatient Stays (OEI-02-12-00040)
Page 16 – Marilyn Tavenner


In addition, OIG plans to conduct future work on hospitals’ use of these stays. We also
plan to conduct future work on inappropriate Medicare payments for SNF services for
beneficiaries who do not have a 3-night qualifying hospital stay. We may issue formal
recommendations to CMS in these future reports.

This memorandum report is being issued directly in final form because it contains no
formal recommendations. If you have comments or questions about this report, please
provide them within 60 days. Please refer to report number OEI-02-12-00040 in all
correspondence.




Hospitals’ Use of Observation Stays and Short Inpatient Stays (OEI-02-12-00040)
Page 17 – Marilyn Tavenner


APPENDIX A

Descriptions of Reasons for Stay*

 Reason                                               Description

 Chest pain                                           Chest pain

                                                      Circulatory disorders except acute myocardial infarction, with cardiac
 Circulatory disorders
                                                      catheterization

 Coronary stent insertion                             Percutaneous cardiovascular procedures with stent

 Digestive disorders                                  Esophagitis, gastroenteritis, and miscellaneous digestive disorders

 Dizziness                                            Dysequilibrium

 Fainting                                             Syncope and collapse

 Headaches                                            Headaches

 Injuries to the skin or tissue                       Trauma to the skin, subcutaneous tissue, and breast

 Irregular heartbeat                                  Cardiac arrhythmia and conduction disorders

 Irregular heartbeat (medium severity)                Cardiac arrhythmia and conduction disorders (medium severity)

 Kidney and urinary tract infections                  Kidney and urinary tract infections

 Loss of blood flow to the brain                      Transient ischemia

                                                      Signs and symptoms of musculoskeletal system and connective tissue
 Musculoskeletal signs and symptoms
                                                      (e.g. muscle inflammation, joint pain)

                                                      Nutritional and miscellaneous metabolic disorders (e.g. vitamin
 Nutritional disorders
                                                      deficiency)

 Red blood cell disorders                             Red blood cell disorders (e.g. anemia, sickle-cell disease)

 Respiratory signs and symptoms                       Respiratory signs and symptoms (e.g. coughing, shortness of breath)

 Signs and symptoms                                   Signs and symptoms (e.g. general pain, malaise)
*Unless noted otherwise, throughout this report, all of the reasons for stays were for beneficiaries at the low severity level—i.e., without
secondary diagnoses that can increase the complexity of care.
Source: OIG, 2013.




Hospitals’ Use of Observation Stays and Short Inpatient Stays (OEI-02-12-00040)
Page 18 – Marilyn Tavenner


APPENDIX B

Percentage of Observation Stays Lasting 2 Nights of Longer, 2012

                                                            Percentage of
 Most Common Reasons For Observation Stays      Observation Stays Lasting
                                                      2 Nights or Longer

 Medical back problems                                             54.5%

 Signs and symptoms                                                47.9%

 Nutritional disorders                                             47.2%

 Digestive disorders                                               46.7%

 Circulatory disorders                                             45.2%

 Dizziness                                                         39.3%

 Fainting                                                          38.3%

 Respiratory signs and symptoms                                    33.2%

 Irregular heartbeat                                               24.8%

 Chest pain                                                        24.1%
Source: OIG analysis of CMS data, 2013.




Hospitals’ Use of Observation Stays and Short Inpatient Stays (OEI-02-12-00040)
Page 19 – Marilyn Tavenner

APPENDIX C

Most Common Reasons for Long Outpatient Stays, 2012

                                                                 Percentage of
 Most Common Reasons for Long Outpatient    Number of Long
                                                               Long Outpatient
 Stays                                      Outpatient Stays
                                                                        Stays

 Digestive disorders                                121,721              8.8%

 Chest pain                                          57,078              4.1%

 Coronary stent insertion                            54,723              3.9%

 Injuries to the skin or tissue                      49,384              3.6%

 Kidney and urinary tract infections                 37,183              2.7%

 Medical back problems                               31,418              2.3%

 Signs and symptoms                                  29,712              2.1%

 Circulatory disorders                               28,853              2.1%

 Musculoskeletal signs and symptoms                  28,024              2.0%

 Headaches                                           25,010              1.8%
Source: OIG analysis of CMS data, 2013.




Hospitals’ Use of Observation Stays and Short Inpatient Stays (OEI-02-12-00040)
Page 20 – Marilyn Tavenner


APPENDIX D

Most Common Reasons for Short Inpatient Stays, 2012

 Most Common Reasons for                     Number of Short           Percentage of
 Short Inpatient Stays                        Inpatient Stays   Short Inpatient Stays

 Chest pain                                           49,716                    4.3%

 Coronary stent insertion                             45,658                    4.0%

 Irregular heartbeat                                  38,961                    3.4%

 Digestive disorders                                  37,649                    3.3%

 Fainting                                             32,656                    2.8%

 Circulatory disorders                                29,515                    2.6%

 Loss of blood flow to the brain                      25,355                    2.2%

 Nutritional disorders                                24,624                    2.1%

 Red blood cell disorders                             20,977                    1.8%

 Irregular heartbeat (medium severity)                20,064                    1.7%
Source: OIG analysis of CMS data, 2013.




Hospitals’ Use of Observation Stays and Short Inpatient Stays (OEI-02-12-00040)
